2311 Douglas Street
Omaha, Nebraska 68102-1214

E-Mail Address:
contact@cocklelegalbriefs.com

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

Web Site
www.cocklelegalbriefs.com

No. 20- 1700
ULTRATEC, INC.,
Petitioner,
V.

CAPTIONCALL, LLC AND THE DIRECTOR OF
THE U.S. PATENT AND TRADEMARK OFFICE,
Respondents.

AFFIDAVIT OF SERVICE
I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 15th day of October, 2021, send out
from Omaha, NE 2 package(s) containing 3 copies of the REPLY BRIEF IN SUPPORT OF PETITION FOR WRIT OF
CERTIORARI in the above entitled case. All parties required to be served have been served by Priority Mail. Packages were
plainly addressed to the following:
SEE ATTACHED

To be filed for:
KRISTIN GRAHAM NOEL
MARTHA JAHN SNYDER
ANITA MARIE BOOR
QUARLES & BRADY LLP
33 East Main Street
Suite 900
Madison, WI 53703

JAMES E. GOLDSCHMIDT
Counsel of Record
QUARLES & BRADY LLP
411 East Wisconsin Avenue
Suite 2400
Milwaukee, WI 53202
(414) 277-5000
james.goldschmidt@
quarles.com
Counsel for Petitioner

Subscribed and sworn to before me this 15th day of October, 2021.
I am duly authorized under the laws of the State ofNebraska to administer oaths.

NERAL NOTARY-State of Nebraska
RENEE J, GOSS
My COmm. Eiq). September 5, 2023

Affiant

41523

Pratik A. Shah
Akin Gump Strasuss Hauer & Feld LLP
2001 K Street NW
Washington, DC 20006
(202) 887-4210
pshah@akingump.com
Brian H. Fletcher, Acting Solicitor General
U.S. Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov

